No. _______

In The

Supreme Court of the United States

PAUL ALEXANDER,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

APPENDIX

C. Justin Brown
Counsel of Record
BROWN LAW
1 North Charles Street
Suite 1301
Baltimore, MD 21201
410-244-5444
brown@cjbrownlaw.com
Attorney for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond VA 23219 (800) 847-0477

TABLE OF CONTENTS
Opinion of the United States Court of
Appeals for the Fourth Circuit, filed 2/4/21 ............ A1
Order on Rehearing of the United States
Court of Appeals for the Fourth Circuit, filed
4/12/21 ...................................................................... A6

A1
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-4059
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
PAUL ALEXANDER, a/k/a David Paul Hayes, a/k/a
Shorty,
Defendant - Appellant.
Appeal from the United States District Court for the
District of Maryland, at Baltimore. Richard D.
Bennett, District Judge. (1:19-cr-00020-RDB-1)
Submitted: December 22, 2020
Decided: February 4, 2021
Before KING, AGEE, and RICHARDSON, Circuit
Judges.
Affirmed by unpublished per curiam opinion.
C. Justin Brown, Lylian Romero, BROWN LAW,
Baltimore, Maryland, for Appellant. Robert K. Hur,
United States Attorney, Matthew DellaBetta,
Assistant United States Attorney, OFFICE OF THE
UNITED
STATES
ATTORNEY,
Baltimore,
Maryland, for Appellee.

A2
Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
A grand jury indicted Paul Alexander on
charges of conspiracy to distribute and possess with
intent to distribute 400 grams or more of fentanyl,
21 U.S.C. § 846; two counts of possession with intent
to distribute 400 grams or more of fentanyl, 21
U.S.C. § 841(a)(1); one count of possession of a
firearm in relation to a drug trafficking crime, 18
U.S.C. § 924(c); and one count of possession of a
firearm by a felon, 18 U.S.C. § 922(g)(1). Before trial,
Alexander filed motions to suppress the evidence
seized from a traffic stop on May 15, 2018, as well as
any fruits of that evidence. The district court denied
Alexander’s motions after a hearing. A jury
subsequently convicted Alexander on all counts, and
the district court sentenced him to a total of 420
months in prison.
Alexander appeals, challenging the denial of
his motions to suppress. Alexander makes three
arguments. Alexander’s first two arguments
contend, based on the collective knowledge doctrine,
that the Drug Enforcement Administration’s
investigatory task force did not provide enough
information to local police officers performing the
traffic stop to impute reasonable suspicion to
perform the traffic stop or the subsequent canine
scan.1 Alexander’s third argument asserts that the

Alexander waived any claim that the initial traffic stop was
illegal before the district court. Accordingly, we do not review
the initial traffic stop. See United States v. Claridy, 601 F.3d
1

A3
local police officers lacked independent reasonable
suspicion to perform a canine scan. The Government
contends that even if any evidence was illegally
obtained, its admission is harmless error. We affirm.
The Fourth Amendment protects “[t]he right
of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches
and seizures.” U.S. Const. amend. IV. “A traffic stop
constitutes a seizure under the Fourth Amendment
and is thus subject to a reasonableness
requirement,” and “[t]o support a finding of
reasonable suspicion, we require the detaining
officer to either articulate why a particular behavior
is suspicious or logically demonstrate, given the
surrounding circumstances, that the behavior is
likely to be indicative of some more sinister activity
than may appear at first glance.” United States v.
Williams, 808 F.3d 238, 245-46 (4th Cir. 2015)
(internal quotation marks omitted). When reviewing
a district court’s ruling on a motion to suppress, “we
review [the district] court’s legal conclusions de novo
and its factual findings for clear error, considering
the evidence in the light most favorable to the
government.” United States v. Kolsuz, 890 F.3d 133,
141-42 (4th Cir. 2018).
“[W]hen an officer acts on an instruction from
another officer, the act is justified if the instructing
officer had sufficient information to justify taking
such action [him]self.” United States v. Massenburg,
654 F.3d 480, 492 (4th Cir. 2011). In this situation,
“the instructing officer's knowledge is imputed to the
acting officer.” Id. Further, the act is justified “if and
only if the officers who issued the request had
276, 284 n.2 (4th Cir. 2010) (“When a claim of constitutional
error has been waived, it is not reviewable on appeal.”).

A4
reasonable, particularized suspicion sufficient to
justify their own stop.” Id.; see also United States v.
Hensley, 469 U.S. 221, 232 (1985) (“If the
[instruction] has been issued in the absence of a
reasonable suspicion, then a stop in the objective
reliance upon it violates the Fourth Amendment.”).
A lawful traffic stop “can become unlawful if it is
prolonged beyond the time reasonably required to
complete [the] mission” of issuing a ticket. Illinois v.
Caballes, 543 U.S. 405, 407 (2005). The permissible
duration of a traffic stop “is determined by the
seizure’s mission—to address the traffic violation
that warranted the stop,” meaning that it may “last
no longer than is necessary to effectuate that
purpose.” Rodriguez v. United States, 575 U.S. 348,
354 (2015) (brackets and internal quotation marks
omitted). “Authority for the seizure thus ends when
tasks tied to the traffic infraction are—or reasonably
should have been—completed.” Id.
Assuming, without deciding, that the district
court erred as Alexander contends, we conclude that
any error is harmless. See United States v. Brizuela,
962 F.3d 784, 798 (4th Cir. 2020) (“An error is
harmless if we can say with fair assurance, after
pondering all that happened without stripping the
erroneous action from the whole, that the judgment
was not substantially swayed by the error.” (internal
quotation marks omitted)). The only evidence that
may have been erroneously admitted is the evidence
directly obtained during the traffic stop. This
evidence was a small part of an overwhelming
amount of evidence the Government introduced
during trial. Twenty witnesses testified about
Alexander’s extensive drug trafficking activities.
Only three of the Government’s witnesses testified

A5
about the traffic stop. Because “we believe it highly
probable that the error did not affect the judgment,”
id. (internal quotation marks omitted), we conclude
that any error admitting evidence directly derived
from the traffic stop is harmless.
Accordingly, we affirm the criminal judgment.
We dispense with oral argument because the facts
and legal contentions are adequately presented in
the materials before this court and argument would
not aid the decisional process.
AFFIRMED

A6
FILED: April 12, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-4059 (1:19-cr-00020-RDB-1)
UNITED STATES OF AMERICA,
Plaintiff – Appellee,
v.
PAUL ALEXANDER, a/k/a David Paul Hayes, a/k/a
Shorty
Defendant – Appellant.
ORDER
The court denies the petition for rehearing
and rehearing en banc. No judge requested a poll
under Fed. R. App. P. 35 on the petition for
rehearing en banc.
Entered at the direction of the panel: Judge
King, Judge Agee, and Judge Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

